  Additional Copies

  To obtain additional copies of this report, visit the Inspector General, DoD,
  Home Page at www.dodig.osd.mil/audit/reports or contact the Secondary Reports
  Distribution Unit of the Audit Followup and Technical Support Directorate at
  (703) 604-8937 (DSN 664-8937) or fax (703) 604-8932.

  Suggestions for Future Audits

  To suggest ideas for or to request future audits, contact the Audit Followup and
  Technical Support Directorate at (703) 604-8940 (DSN 664-8940) or
  fax (703) 604-8932. Ideas and requests can also be mailed to:

                    OAIG-AUD (ATTN: AFTS Audit Suggestions)
                     Inspector General, Department of Defense
                        400 Army Navy Drive (Room 801)
                            Arlington, VA 22202-4704


  Defense Hotline

  To report fraud, waste, or abuse, contact the Defense Hotline by calling
  (800) 424-9098; by sending an electronic message to Hotline@dodig.osd.mil; or
  by writing to the Defense Hotline, The Pentagon, Washington, DC 20301-1900.
  The identity of each writer and caller is fully protected.




Acronyms
ADV                   Auditable Dollar Volume
CAM                   DCAA Manual 7640.1, “DCAA Contract Audit Manual”
DCAA                  Defense Contract Audit Agency
ESC                   Executive Steering Committee
FAO                   Field Audit Office
GAS                   Government Auditing Standards
MRD                   Memorandum for Regional Directors
PCIE                  President’s Council on Integrity and Efficiency
RQA                   Regional and Field Detachment Quality Assurance Division
                       Office of the Inspector General, DoD
Report No. D-2002-6-005                                                    April 16, 2002
   (Project No. D2000OA-0238.01)

       Defense Contract Audit Agency Regional Quality Assurance
            Review of the Incurred Cost Sampling Initiative

                                   Executive Summary

Introduction. This is the second in a series of reports on the Defense Contract Audit
Agency quality assurance program. For our first report, we issued Report
No. D-2002-6-001, December 6, 2001, “Defense Contract Audit Agency Quality
Assurance Program,” that assessed the adequacy of the overall quality assurance
program and the quality assurance review of forward pricing assignments. The
Defense Contract Audit Agency Executive Steering Committee tasked the regional and
Field Detachment Quality Assurance Divisions to conduct an initial review and a
followup review of the implementation of the incurred cost sampling initiative for
contractors with auditable dollar volume of $10 million or less. The sampling initiative
uses audit experience to stratify those contractors into two groups: high-risk
contractors that would be audited annually and low-risk contractors that would be
audited at least once every three years based on a prior audit history of little or no cost
questioned or other audit leads. In FY 2000, the sampling initiative covered about
3,500 incurred cost audit submissions worth almost $7 billion. The sampling initiative
is designed to redirect audit effort from low-risk contractors to high-risk audit areas.

Objectives. The objective was to determine whether the Defense Contract Audit
Agency regional and Field Detachment Quality Assurance Divisions' reviews of the
implementation of the incurred cost sampling initiative provided reasonable assurance
that the applicable established policies and procedures were followed for the sampling
initiative program. Specifically, we assessed how the Defense Contract Audit Agency
selected, staffed, and performed the regional and Field Detachment quality assurance
reviews of the implementation of the sampling initiative.

Results. The regional and Field Detachment internal quality assurance reviews
provided reasonable assurance that the incurred cost sampling initiative was
implemented in accordance with established policies and procedures. The regional and
Field Detachment FY 1999 internal quality assurance review of the sampling initiative
properly identified major noncompliances with the established auditing policies and
procedures, and the FY 2000 review performed timely followup on the issues identified
by the initial review. The regional and Field Detachment quality assurance programs
include aspects of the key characteristics needed for an effective review of an internal
quality control system. However, additional improvements and enhancements through
formalization of the regional and Field Detachment quality assurance policies and
procedures, better documentation, and more complete cross-referencing of review
results would ensure that the regional and Field Detachment Quality Assurance
Divisions operate as a more effective part of the overall quality assurance program, and
would allow an external reviewer to place greater reliance on its work without
retesting.

Summary of Recommendations. We recommend the Defense Contract Audit Agency
require all corrective actions and followup procedures related to the regional and Field
Detachment Quality Assurance Divisions joint reviews directed by the Executive
Steering Committee are tracked until completion. We also recommend that the Defense
Contract Audit Agency issue written regional and Field Detachment instructions for
their respective quality assurance divisions and update the regional and Field
Detachment quality control system descriptions to include the quality assurance
division.

Management Comments. The Defense Contract Audit Agency concurred in principle
to tracking corrective actions and followup procedures until completion, stating that
organizational elements will be required to report the completion of corrective actions
to the Executive Steering Committee, or other designated management officials, and
that the process would be incorporated into a new instruction to be issued by May 30,
2002. The Defense Contract Audit Agency concurred with developing written policies
and procedures and to update the quality control system descriptions, stating that each
regional director will have either developed a new instruction or updated existing
instructions by August 30, 2002. A discussion of management comments to the
recommendations is in the Finding section of the report and the complete text is in the
Management Comments section.




                                           ii
Table of Contents

Executive Summary                                                i

Introduction
     Background                                                 1
     Objectives                                                 3

Finding
     Regional and Field Detachment Quality Assurance Programs   4
Appendixes
     A. Evaluation Process
         Scope                                                  11
         Methodology                                            11
         Prior Coverage                                         12
     B. Report Distribution                                     14

Management Comments
     Defense Contract Audit Agency                              15
Background
            This is the second in a series of reports on the Defense Contract Audit Agency
            (DCAA) quality assurance program. The first report issued, Report
            No. D-2002-6-001, December 6, 2001, “Defense Contract Audit Agency
            Quality Assurance Program,” assessed the adequacy of the quality assurance
            program and the first quality assurance review of forward pricing audits.

            DCAA Organizations and Functions. DoD Directive 5105.38, "Defense
            Contract Audit Agency," June 9, 1965, establishes DCAA as a separate
            organization under the direction, authority, and control of the Under Secretary
            of Defense (Comptroller/Chief Financial Officer).1 Organizationally, DCAA is
            divided into a headquarters, five regions, a Field Detachment, and 81 field audit
            offices (FAOs).2 DCAA considers all organizational layers to be part of its
            internal quality control system. The primary mission of DCAA is to perform
            contract audits for DoD. For FY 2000, DCAA completed 41,722 audits valued
            at $194.8 billion,3 with net savings of $2.4 billion. DCAA incurred
            $364.3 million in total operating costs. DCAA audit guidance is contained in
            DCAA Manual 7640.1, "DCAA Contract Audit Manual" (CAM).4 Specifically,
            CAM 2-101 states that the Government Auditing Standards (GAS) is applicable
            to DCAA. DCAA ensures compliance with applicable auditing standards
            throughout audit planning and performance activities by supplementing audit
            guidance in CAM with standard audit programs. Between semi-annual CAM
            updates, DCAA headquarters notifies managers of new and revised audit
            guidance by issuing Memorandums for Regional Directors (MRD) that are
            usually incorporated into the next CAM update.

            Executive Steering Committee. The Executive Steering Committee (ESC) is
            responsible for providing overall management and direction for the DCAA total
            quality management program. In addition, ESC is responsible for establishing
            the DCAA vision and strategic goals, identifying quality improvement projects,
            evaluating quality improvement projects suggested by others, either approving
            or disapproving DCAA-wide process action teams, and maintaining active
            communication and coordination with the quality management boards regarding
            their process action team activities and recommendations. Its members include
            the director, deputy director, assistant directors of the headquarters components,
            regional directors of the five regions and Field Detachment, and general
            counsel. ESC meets quarterly, and it is briefed on the DCAA internal quality
            assurance program among other issues. If necessary, ESC establishes

1
    Formerly the Assistant Secretary of Defense (Comptroller)
2
    An FAO can be either a resident office or a branch office. A resident office is established at a
    contractor’s facility whenever the amount of audit work justifies the assignment of a permanent staff of
    auditors and support elements. A branch office, which performs the work at several contractor
    facilities, is not located in a contractor’s facility.
3
    This represents dollars examined or reviewed by DCAA for forward pricing assignments, incurred cost
    audits, and special audits; for example, terminations, claims, and Government facility rentals.
4
    DCAA Manual 7640.1 is updated every six months. As of December 2001, the most recent version was
    July 2001.



                                                       1
            action items for tasks to be completed or information to be provided as a result
            of the internal quality assurance briefings. A listing of action items is
            maintained by the Executive Officer for the Director, DCAA.

            DCAA Internal Quality Control System. The DCAA internal quality control
            system encompasses the agency’s organizational structure, and it is an important
            subset of the DCAA total quality management program. The DCAA internal
            quality control system is implemented at all levels of the organization. It is
            multifunctional and covers elements of vulnerability assessment, internal control
            review, external audit followup,5 audit quality review, and management
            improvement efforts.

            Requirement for Internal Quality Control System. GAS, issued by the
            Comptroller General of the United States, requires that each audit organization
            have an appropriate quality control system. The objective of an internal quality
            control system is to provide reasonable assurance that established policies,
            procedures, and auditing standards are followed. An organization’s internal
            quality assurance program is an important part of its quality control system.

            Incurred Cost Sampling Initiative. DCAA proposed the sampling initiative in
            FY 1994 as a means to redirect audit effort from small, low-risk incurred cost
            audits to higher risk audit areas and reduce the incurred cost audit backlog that
            existed at that time. In August 1995, DCAA issued audit guidance
            implementing the initiative. The sampling initiative originally covered annual
            incurred cost submissions with auditable dollar volume (ADV) of $5 million or
            less. For FY 1999, DCAA expanded the program to include annual incurred
            cost submissions with ADV of $10 million or less.

            CAM provides guidance on how FAOs should implement the sampling
            initiative. A contractor’s incurred cost submission is either classified as
            high-risk or low-risk. A submission is categorized as low-risk when the audit of
            the prior year’s submission disclosed no significant questioned costs, no audit
            leads existed with a high probability of significant questioned costs, the
            contracting officer did not request an audit identifying significant audit risk, and
            DCAA has previously performed incurred costs audits at the contractor.
            Submissions not meeting the requirements for low-risk are automatically
            considered high-risk and are scheduled for audit. All low-risk submissions are
            put into a FAO-wide pool from which one-third are randomly selected for audit.
            FAO performs a desk review on the remaining two-thirds. In addition, FAO is
            required to audit a contractor’s submission at least once every three years, no
            matter how it is categorized. In FY 2000, the sampling initiative covered
            approximately 3,500 incurred cost audit submissions worth about $7 billion.

            Regional Quality Assurance Review of the Sampling Initiative. In
            March 1998, ESC tasked the staff of the Assistant Director, Policy and Plans,
            DCAA, to team with the regions to perform an evaluation of current practices in



5
    This includes activities related to external audit organizations, such as the General Accounting Office
    and the DoD Inspector General.



                                                        2
           the low-risk arena to determine the need for additional guidance. Senior
           management from the regional and Field Detachment6 Quality Assurance
           Divisions (RQA)7 met in December 1998 and proposed a DCAA-wide RQA
           project on the sampling initiative to ESC, which was approved. By that time,
           some regions had already identified compliance issues involving implementation
           of the sampling initiative and three regions had planned or started a review. It
           was the first time ESC directed RQAs to perform a joint DCAA-wide review.
           In FY 1999, RQAs performed the initial DCAA-wide review of the
           implementation of the sampling initiative. RQAs presented the results to ESC at
           the September 1999 meeting. Based on the results of the initial review, ESC
           tasked RQAs to conduct a followup DCAA-wide project to determine whether
           FAOs previously reviewed had corrected the identified deficiencies. The RQA
           representatives presented the results of the followup review to ESC at the
           September 2000 meeting and concluded that an overall acceptable level of
           compliance had been reached. RQAs identified two noncompliance areas;
           administrative contracting officer notification and billing rate adjustment, for
           which DCAA planned to issue revised guidance. Based on that briefing, ESC
           decided that no further DCAA-wide followup was needed.

Objectives
           The overall evaluation objective was to determine whether the RQA reviews of
           the implementation of the incurred cost sampling initiative for contractors with
           ADV of $10 million or less provides reasonable assurance that applicable
           established policies and procedures were followed for the sampling initiative
           program. Specifically, we assessed how DCAA selected, staffed, and
           performed the RQA reviews of the implementation of the sampling initiative.
           See Appendix A for a discussion of the evaluation scope, methodology, and
           prior coverage.

6
    Field Detachment is responsible for the overall planning, management, and execution of worldwide
    DCAA contract audits of compartmented programs.
7
    The Field Detachment Quality Assurance Division operates in essentially the same manner as an RQA;
    therefore, in this report, when we refer to an RQA we are including the Field Detachment Quality
    Assurance Division.




                                                     3
           Regional and Field Detachment Quality
           Assurance Programs
           The regional and Field Detachment internal quality assurance reviews
           provided reasonable assurance that the sampling initiative was
           implemented in accordance with established policies and procedures.
           The regional and Field Detachment FY 1999 internal quality assurance
           review of the sampling initiative properly identified major
           noncompliances with the established auditing policies and procedures,
           and the FY 2000 review performed timely followup on the issues
           identified by the initial review. The DCAA regional and Field
           Detachment quality assurance programs were established to complement
           the headquarters quality assurance program in providing reasonable
           assurance that DCAA has a comprehensive quality control system that
           follows applicable auditing standards and has established and follows
           adequate audit policies and procedures. The regional and Field
           Detachment quality assurance programs include aspects of the key
           characteristics needed for an effective review of an internal quality
           control system. However, additional improvements and enhancements
           through formalization of the regional and Field Detachment quality
           assurance policies and procedures as well as better review documentation
           would ensure that RQAs operate as a more effective part of the overall
           DCAA quality assurance program, and would allow an external reviewer
           to place greater reliance on the internal quality assurance work
           performed by RQAs without retesting.

Structure of DCAA Quality Assurance Program
    DCAA Quality Assurance Program. DCAA MRD 98-P-147(R),
    “Establishment of Quality Assurance Division,” October 23, 1998, established a
    Quality Assurance Division at DCAA headquarters and in each of the five
    regions and Field Detachment. RQAs are responsible for developing and
    executing an agency-wide program to provide reasonable assurance that DCAA
    has adopted and follows applicable auditing standards, and that DCAA has
    established and follows adequate auditing policies and procedures. Additional
    functions include assessing the need for new or revised guidance, supporting
    external quality control reviews, accompanying external auditors on field visits,
    serving on process action teams, assisting in responding to inquiries, and
    identifying “best-in-class” processes for DCAA-wide use.

    Headquarters Quality Assurance Division. The DCAA headquarters Quality
    Assurance Division performs formal internal quality assurance reviews and
    other quality assurance-related reviews on a DCAA-wide basis using criteria
    derived from the “Guide for Conducting External Quality Control Reviews of
    the Audit Operations of Offices of the Inspector General” (PCIE Guide),




                                        4
           April 1997, developed by the President’s Council on Integrity and Efficiency
           (PCIE).8 When conducting the reviews, the headquarters Quality Assurance
           Division assesses compliance with applicable auditing standards and audit
           policies and procedures, the need for enhanced or new audit policy guidance,
           and best practices for agency-wide use.

           Regional and Field Detachment Quality Assurance Divisions. RQAs assist
           the DCAA headquarters Quality Assurance Division in performing formal
           internal quality assurance reviews, in addition to conducting independent quality
           assurance reviews of regional policies and procedures. RQAs can be directed to
           perform regional internal quality assurance reviews by either the regional
           director or ESC. The ESC can direct RQAs to jointly perform internal quality
           assurance reviews on an agency-wide basis when DCAA management
           determines that the audit area merits such a review. For ESC-directed reviews,
           RQAs assess compliance with applicable DCAA policies and procedures, the
           need for enhanced or new agency-wide guidance, or best practices for agency-
           wide use. When conducting regional internal quality assurance reviews, RQAs
           assess compliance with applicable regional policies and procedures, the need for
           enhanced or new regional guidance, and best practices for regional use. RQAs
           also perform special reviews as required by the regional directors. RQAs report
           to the regional directors rather than the DCAA headquarters Quality Assurance
           Division; however, for ESC-directed reviews, RQAs report the results of the
           review to ESC.

DCAA Regional and Field Detachment Quality Assurance
  Programs
           The PCIE Guide describes the characteristics that an organization’s quality
           assurance program should integrate into any review of its quality control
           system. Those characteristics include formal quality assurance review
           procedures, adequate staffing, independence, thorough scope of review,
           sufficient evidence, written results, written responses, and an effective followup
           process. The DCAA regional and Field Detachment quality assurance programs
           contain elements of each of those characteristics. For staffing, independence,
           and scope of review, the regional and Field Detachment quality assurance
           programs meet the intent of the PCIE Guide. However, additional
           improvements and enhancements in formal quality assurance review procedures,
           evidence, written reports and responses, and followup process would ensure that
           RQAs operate as a more effective part of the overall DCAA quality assurance
           program. The characteristics of the DCAA regional and Field Detachment
           quality assurance programs need improvement or enhancement in order for an
           external reviewer to place greater reliance on the internal quality assurance
           work performed by RQAs.



8
    The PCIE was established to identify, review, and discuss areas of weakness and vulnerability in
    Federal programs and operations; to develop plans for coordinated, Government-wide activities that
    address those issues; and to promote economy and efficiency in Federal programs and operations.
    Although it does not affect this review, the PCIE Guide was revised on January 4, 2002.



                                                      5
Formal Quality Assurance Review Procedures. Organizations conducting
internal quality assurance reviews should have formal policies and procedures.
None of the RQAs had formal policies and procedures describing how the
internal quality assurance reviews would be conducted. As of December 20,
2001, two regions (Central and Western) revised the regional quality control
system instruction to include the recently formed RQAs. A third region
(Eastern) revised its instruction on the Total Management Control Program to
include its RQA. In order to document the role that RQAs serve in the regional
quality control system, the regional instructions should be revised. In addition,
because RQAs perform various reviews depending on the requester, the regions
should issue formal, written policies and procedures that describe
responsibilities, functions, review reporting, and documentation requirements.

Staffing. Internal quality assurance review teams should be led by a senior
manager, and the reviewers should have an appropriate level of experience.
Each RQA staff consists of one GS-14 supervisor and four GS-13 auditors.
Each RQA staff reports to a regional director. DCAA requires that quality
assurance staffs comply with continuing professional education requirements in
GAS. The RQA staffing appears adequate to perform the quality assurance
review function as currently envisioned.

Independent Review. The review team leader should report to an individual or
a level within the organization that would ensure independence and objectivity
of the performance of internal quality assurance reviews. Auditors assigned to
RQAs generally report to the regional directors rather than the headquarters
Quality Assurance Division except when performing headquarters-led internal
quality assurance reviews. In addition, when performing ESC-directed reviews,
a briefing is provided to ESC. Therefore, the organizational independence of
RQAs is appropriate to accomplish the intended mission.

Scope of RQA Reviews. The scope of the internal quality assurance reviews
should include a determination on the degree of compliance with applicable
auditing standards, policies and procedures, internal quality control policies and
procedures, and other statutory or regulatory guidance. In addition, an internal
quality assurance program should cover all audit offices issuing audit reports
and an appropriate cross-section of the types of audits performed.

        Initial Review. Each RQA review covered the same general objective:
evaluate, test, and report on the effectiveness of the sampling initiative during
FY 1999. RQAs coordinated a checklist used during the review. RQAs used
the checklist to determine whether the incurred cost submissions were
appropriately assessed for risk, accurately classified as either high-risk or
low-risk, and properly audited or desk reviewed. As part of the review, RQAs
evaluated the relevant FAO procedures. RQAs separately establish the criteria
for selecting FAOs in the respective regions for review. In total, RQAs
reviewed the implementation of the sampling plan of 38 FAOs.




                                     6
                    Followup Review. The objective of the followup review was to
           evaluate, test, and report on the effectiveness of the corrective actions taken by
           FAOs for implementing the sampling initiative. RQAs determined that the
           followup review should cover four common deficiencies identified during the
           initial review:

                    •   low-risk database not created and/or updated,

                    •   problems selecting low-risk sample,

                    •   inadequate documentation for basis of risk classification, and

                    •   CAM specified desk review procedures not being followed.

           RQAs coordinated the checklists used for the followup review. However, as in
           the initial review, each RQA established its own FAO selection criteria. In
           total, RQAs visited 39 FAOs, 31 of the FAOs had been visited during the initial
           review and 8 had not. In conclusion, RQAs established an acceptable scope to
           accomplish the stated objectives for both reviews. The checklists adequately
           covered the applicable DCAA policies and procedures. The 46 FAOs9 reviewed
           provided the appropriate coverage to accomplish the stated objectives of the
           initial and followup reviews.

           Evidence. Competent evidential matter should be gathered and, where
           applicable, sufficient testing should be accomplished to determine whether the
           organization is in compliance with applicable auditing standards, policies, and
           procedures. Each RQA determined the amount of testing needed for the
           preliminary risk assessments and desk reviews at FAOs. Therefore, each RQA
           gathered what it considered to be sufficient evidence to evaluate whether its
           auditors complied with applicable auditing policies and procedures. However,
           we were unable to rely on the RQA work without retesting because of the lack
           of sufficient documentation.

           RQAs were not required to follow any specific documentation standards, such as
           GAS, when performing internal quality assurance reviews. Explanations in the
           RQA review documentation were not always sufficient for an external reviewer
           to understand the rationale behind the conclusions. For example, RQA
           reviewers did not always document the reason for a “yes,” “no,” or “not
           applicable” answer. In some cases, for certain questions the reason was obvious
           usually because of the answer to a previous question. However, for other
           questions, some RQA reviewers could have provided more written support for
           the answers either by referencing a working paper from the FAO file or
           providing a more detailed explanation in the comments column.

           Also, the RQA reviewers did not always document why items selected for
           review were not reviewed. For instance, in one RQA review, 14 reviews were
           initially selected, but it was unclear why the RQA reviewer did not look at 1 of
           the items. For another RQA review, the initial selection was 10, however, only
           9 were reviewed. The reviewer dropped one from the initial selection and
9
    The 46 FAOs are comprised of the 38 FAOs reviewed during the initial review and the 8 additional
    FAOs reviewed during the followup but not reviewed initially.



                                                     7
included a different item. The documentation did not explain why the
substitution was made. Additional documentation is needed for an external
reviewer to be able to place reliance on the RQA work without retesting or with
minimal retesting.

In addition, review documentation was not always cross-referenced to
supporting documentation in the FAO files. Such cross-referencing would have
facilitated external review. Issuance of formal, written policies and procedures
should address documentation expectations for regional quality assurance
reviews.

Written Results and Responses. Written results should be prepared for each
review and, when applicable, should include recommendations for corrective
actions. In addition, written responses to the written results should be obtained
on each recommendation to include the proposed corrective actions or the
corrective actions already taken. RQAs summarized all of the regional reports
and presented consolidated briefings to ESC for the initial review in
September 1999 and the followup review in September 2000. The charts that
RQAs used to brief ESC on the initial and followup reviews included
recommendations for corrective action. The briefing charts used by RQAs
contained sufficient detail and met the intent of a written report and response.
Each RQA issued a report to the regional director summarizing the region-wide
results, corrective actions, and best practices found at various FAOs. However,
each reviewed RQA followed a slightly different procedure in providing
individual review results to FAOs. One RQA prepared memorandums for the
FAO managers summarizing the results of the review at each FAO in the region
and included the FAO response as an attachment. Another RQA provided a
more formal report with the FAO response attached. A third RQA provided a
copy of the reviewer’s exit notes as well as the summary working paper for the
review to FAO. Providing written documentation of the conditions at the FAO
level and obtaining written FAO responses with corrective action plans would
facilitate implementation of corrective actions and would enhance the RQA
review process.
Followup Process. Procedures should be established for resolution and
followup of recommended corrective actions. A good followup system should
provide information on what improvements were made as a result of the work
and whether the improvements achieved the desired result. Determining actions
taken on recommendations requires active monitoring of the status of
recommendations. DCAA has two separate followup processes for monitoring
the status of actions taken as a result of RQA reviews. The followup process
used depends on whether the review was DCAA-wide or region specific. For
DCAA-wide reviews, any corrective action adopted by ESC is assigned an
action item number and it is included in a database maintained by the Executive
Officer for the Director, DCAA. For region specific reviews or region specific
issues identified by a DCAA-wide review, the RQA reports to the regional
director and it is solely responsible for any followup deemed necessary.

As discussed in Inspector General, DoD, Report No. D-2002-6-001, “Defense
Contract Audit Agency Quality Assurance Program,” December 6, 2001, and
agreed to by DCAA, DCAA should formalize a coordinated followup process
for ESC-directed reviews and ESC-approved corrective actions.


                                    8
              ESC-Directed Followup. For ESC-directed RQA reviews, regional
     directors should be required to notify the headquarters Quality Assurance
     Division when all corrective actions have been completed. As part of this
     process, ESC should define when corrective actions would be considered
     completed for purposes of the ESC-directed review. For instance, after RQAs
     briefed ESC on the results of the initial review, ESC directed RQAs to perform
     followup on certain key findings. The action helped ensure that the regions and
     FAOs would emphasize correction of the identified deficiencies in a timely
     manner. However, after the RQA briefing for the followup review, ESC
     determined that no further ESC-directed followup was needed because the RQA
     review found an overall acceptable level of compliance with existing DCAA
     policies. However, RQAs had still identified locations where the sampling
     initiative was not properly implemented. The review did identify two areas
     where significant noncompliance still existed; however, DCAA headquarters
     was in the process of revising audit guidance to help prevent future
     noncompliances. Headquarters issued the relevant guidance in
     MRD 00-PPD-108(R), December 28, 2000.

             RQA Followup. After the ESC–directed followup was completed,
     RQAs separately determined what, if any, further followup at FAOs was
     required to ensure proper implementation. Therefore, one RQA might consider
     that no additional followup was needed even though a reviewed FAO still
     needed to improve its implementation of the sampling initiative. Another RQA
     might decide to continue to review FAO until it could verify that FAO had fully
     implemented the sampling initiative.

     Because ESC tasked RQAs to conduct the review of the sampling initiative, the
     final closeout of any regional followup actions should be tracked by
     headquarters. The regions should be required to notify headquarters how they
     will define closeout on the joint review and when the followup actions are
     completed. Without tracking the regional followup actions, headquarters will
     not know or understand how the regions have completed the followup process.
     The tracking process could be described in the formal, written policies that
     DCAA has already agreed to write for the headquarters Quality Assurance
     Division.

Results of Inspector General, DoD, Retesting
     RQAs generally answered the review checklist questions correctly, properly
     identified major noncompliances with DCAA policies and procedures, and
     performed timely followup on the agreed-to FAO corrective actions. Therefore,
     the RQA reviews of the sampling initiative provide reasonable assurance that the
     applicable DCAA audit policies and procedures were being followed. However,
     future RQA internal quality assurance reviews could be enhanced by improving
     the documentation of the review performed and by more thoroughly cross-
     referencing the results to the supporting documentation. In addition, the overall
     effectiveness of the RQA programs would be improved by documenting




                                         9
    procedures in formal, written regional policies and procedures. Implementation
    of suggested improvements and enhancements would enable external reviewers
    to place greater reliance on the RQA work without retesting.

Recommendations and Management Comments
    1. We recommend that the Director, Defense Contract Audit Agency, issue
    policy requiring all corrective actions and followup procedures related to
    regional and Field Detachment Quality Assurance Divisions joint reviews
    directed by the Executive Steering Committee are tracked until final
    completion.

    Management Comments. DCAA concurred in principle, stating that ESC will
    require DCAA organizational elements to report the completion of action items
    to the designated DCAA management officials. In addition, the DCAA
    headquarters Quality Assurance Division will be the focal point for advising the
    DCAA Director and ESC on the status of action items related to the DCAA
    Quality Assurance Program. DCAA plans to issue a new instruction, which
    will include the followup process, by May 30, 2002.

    2. We recommend that the Regional Directors and the Director, Field
    Detachment, Defense Contract Audit Agency:

           a. Develop written policies and procedures that formalize respective
    regional quality assurance division responsibilities, policies, procedures,
    functions, review reporting and documentation requirements, including
    cross-referencing, and followup procedures.

           b. Update the quality control system description to include the
    quality assurance division.

    Management Comments. DCAA concurred, stating that each regional director
    and the Field Detachment Director will either develop a new instruction or
    significantly revise existing quality control instructions to cover the
    responsibilities of the quality assurance divisions and related policies,
    procedures, functions, review reporting, and documentation requirements by
    August 30, 2002.




                                       10
Appendix A. Evaluation Process

Scope
    An audit organization's internal quality assurance program is an integral part of
    its overall management control program. We based our review on GAS
    standards relating to quality control and DCAA policies and procedures in force
    during FYs 1999 and 2000. In addition, we used the PCIE “Guide for
    Conducting External Quality Control Reviews of the Audit Operations of
    Offices of the Inspector General,” April 1997, specifically Appendix C,
    “Checklist for Assessment of Internal Quality Assurance Program;”
    Appendix D, “Checklist for Review of Internal Quality Assurance Reports;”
    and Appendix I, “Policy Statement on Internal Quality Control and External
    Quality Control Review.” We evaluated the RQA initial reviews of the
    implementation of the sampling initiative performed in FY 1999 and the
    followup review performed in FY 2000. For both reviews, we reviewed the
    RQA coordination process, the review programs and checklists used, the FAO
    selection process, the summary RQA reports issued to the Regional and Field
    Detachment Directors, the ESC briefing charts summarizing the combined
    review results and recommendations, and the corrective action followup
    performed. We visited three FAOs (Fairfax Branch Office in Virginia, Houston
    Branch Office in Texas, and the Mid-Atlantic Branch Office in Maryland) in
    three of the six regions (Mid-Atlantic Region, Central Region, and Field
    Detachment) to retest the RQA work and conclusions. We discussed the review
    process, findings, and conclusions with the regional and Field Detachment
    Quality Assurance Division Chiefs and team members. In addition, we
    reviewed regional and Field Detachment policies and procedures relating to
    RQAs in order to evaluate the regional and Field Detachment quality assurance
    programs in total and to determine how much reliance we could place on the
    process when conducting our oversight reviews.

    Inspector General, DoD, Oversight Responsibilities. Under section 8(c)(6),
    title 5, United States Code, Appendix 3, the Inspector General Act of 1978, as
    amended, the Inspector General, DoD, is responsible for monitoring and
    evaluating adherence of DoD auditors to internal audit, contract audit, and
    internal review principles, policies, and procedures. The office within the
    Inspector General, DoD, responsible for conducting independent oversight
    reviews of DCAA is the Office of the Assistant Inspector General for Auditing,
    Deputy Assistant Inspector General for Audit Policy and Oversight. As part of
    the oversight reviews, Audit Policy and Oversight evaluates the internal quality
    assurance reviews performed by the DCAA headquarters Quality Assurance
    Division and RQAs. Audit Policy and Oversight uses the PCIE Guide as a tool
    when conducting its oversight reviews.

Methodology
    To evaluate the adequacy of the RQA reviews of the sampling initiative, we
    conducted interviews with the RQA personnel to determine the procedures used


                                       11
        to conduct the internal quality assurance reviews. To evaluate the results of the
        reviews, we evaluated the RQA review documentation to determine that
        significant noncompliances were found and reported. We selected three FAOs
        that RQAs had reviewed during both the initial and followup reviews.
        Therefore, we retested approximately 8 percent10 of the RQA work. We
        reviewed the sampling plans, preliminary risk assessments, and desk reviews
        using the same criteria that RQAs used during their reviews. We compared our
        results to the RQA results, identified any differences, and determined why the
        differences existed. In addition, we determined whether corrective actions had
        been implemented after the followup review by reviewing the FAO
        documentation and files generated after the followup review when available and
        relevant. Also, we determined whether sufficient evidence existed in the review
        file to support reviewer judgments, specifically, whether the RQA results were
        adequately cross-referenced to supporting documentation and sufficient
        explanations were provided for checklist responses.

        Use of Computer-Processed Data. We did not use computer-processed data to
        perform the evaluation.

        Evaluation Dates and Standards. We conducted this oversight review from
        November 2000 through March 2002 in accordance with standards issued and
        implemented by the Inspector General, DoD. The project was suspended from
        June 15, 2001 to August 24, 2001.

        Contacts During the Evaluation. We visited or contacted individuals and
        offices within DoD. Further details are available upon request.

Prior Coverage

Inspector General, DoD
        Inspector General, DoD, Report No. D-2002-6-001, “Defense Contract Audit
        Agency Quality Assurance Program,” December 6, 2001
        Inspector General, DoD, Report No. D-2000-6-010, “External Quality Control
        Review of the Defense Contract Audit Agency,” September 27, 2000




10
 For the initial review, 3 out of 38 RQA-reviewed FAOs equal 8.89%. For the followup review, 3 out
 of 39 RQA-reviewed FAOs equal 7.69%.




                                                12
Inspector General, DoD, Report No. PO 97-032, "Evaluation of Defense
Contract Audit Agency Sampling Initiative of Incurred Cost Proposals on Low-
Risk Contractors," June 27, 1997




                                 13
Appendix B. Report Distribution

Office of the Secretary of Defense
Under Secretary of Defense (Comptroller)

Other Defense Organization
Director, Defense Contract Audit Agency




                                           14
Team Members
The Deputy Assistant Inspector General for Audit Policy and Oversight, Office of the
Assistant Inspector General for Auditing, DoD, prepared this report. Personnel of the
Office of the Inspector General, DoD, who contributed to the report, are listed below.

Patricia A. Brannin
Wayne C. Berry
Diane H. Stetler
Martin E. Gordon
Lois J. Wozniak
Catherine M. Schneiter
Ann A. Ferrante
Krista S. Gordon
